<html>
<title> - HEARING TO REVIEW USDA MARKETING PROGRAMS
</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.               HEARING TO REVIEW USDA MARKETING 
                              PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

                           Serial No. 114-19
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
95-344 PDF                   WASHINGTON : 2015                         


_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  








                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     2
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     3
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, submitted article...............................    21
Newhouse, Hon. Dan, a Representative in Congress from Washington, 
  submitted article..............................................    26

                                Witness

Morris, Ph.D., Craig, Deputy Administrator, Livestock Poultry and 
  Seed Program, Agricultural Marketing Service, U.S. Department 
  of Agriculture, Washington, D.C................................     4
    Prepared statement...........................................     6
    Supplementary material.......................................    21


               HEARING TO REVIEW USDA MARKETING PROGRAMS

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:31 p.m., in 
Room 1300, Longworth House Office Building, Hon. Rodney Davis 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Davis, Scott, Moolenaar, 
Newhouse, DelBene, McGovern, Kuster, and Graham.
    Staff present: Carly Reedholm, Haley Graves, Jessica 
Carter, John Goldberg, Mary Nowak, Mollie Wilken, Keith Jones, 
Liz Friedlander, and Nicole Scott

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research to review USDA 
marketing programs, will come to order.
    The chair would like to recognize our guest, Dr. Morris. 
Thank you for being here.
    Thank you to Ranking Member DelBene.
    I will offer my opening statement now.
    Good afternoon. I would like to welcome everyone to the 
Committee hearing. For the past several months, the Committee 
has evaluated aspects of agricultural marketing as we have 
observed consumers, ourselves included, are becoming 
increasingly savvy. As the number of choices available to us 
has increased, so has our desire to locate and purchase 
products that appeal to a broader set of criteria. Consumers 
are seeking more and different food products, not only 
appealing to price and quality characteristics, but now also 
relating to various production methods such as grass-fed, 
natural, organic, or the use of technology such as genetic 
engineering. While many farmers and ranchers are in the 
commodity business, some have been able to achieve market 
premiums by appealing to this new consumer demand and creating 
mixed market opportunities for their products. By utilizing a 
variety of production practices, producers are distinguishing 
their products in order to appeal to unique consumer desires.
    Today, we will be hearing from the USDA regarding programs 
that allow the Agricultural Marketing Service to help producers 
and processors address consumer demand through the development 
of voluntarily and unique marketing claims. To distinguish and 
promote their products in the marketplace, USDA can assist 
producers using a variety of authorities, including the 
Agricultural Marketing Act of 1946, and the Organic Foods 
Production Act.
    As this Committee has repeatedly observed, the keys to 
success in any marketing venture is voluntary participation, 
robust, transparent, and meaningful standards and comprehensive 
enforcement to ensure compliance. Most people are aware of the 
USDA organic label but may not be aware of the policies and 
procedures of the National Organic Program. Likewise, I am sure 
many people have heard of and thoroughly enjoy certified Angus 
beef, but may not know where to find the standards that are in 
place for this program, nor may they be aware of the procedures 
in place to assure that this label claim is truthful and not 
misleading.
    USDA's Agricultural Marketing Service has long been in the 
business of assisting producers in developing the programs and 
tools to take advantage of market opportunities. As the 
Agriculture Committee considers proposals to develop other 
production-based marketing claims, we felt it useful to review 
USDA's authorities and procedures. And it is my hope that this 
information collected today will be of tremendous value as we 
look for opportunities to improve agricultural productivity, 
profitability, and sustainability.
    Before I turn to the Ranking Member, I want to briefly 
discuss a recent Supreme Court decision on the marketing order 
within this Subcommittee's jurisdiction. In the ruling on Horne 
v. U.S. Department of Agriculture case, the Supreme Court held 
certain aspects of the raisin marketing order to be an 
unconstitutional taking. As with all marketing orders, these 
programs are initiated by each industry, and they have the 
opportunity to withdraw a marketing order at any time. Our 
responsibility is to uphold the integrity of marketing programs 
as they are a proven useful tool for many industries while 
ensuring our growers are not adversely harmed in the process.
    We are beginning to have bipartisan discussions with the 
USDA to determine the impact of this decision and may conduct 
additional hearings as the situation warrants.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Good afternoon. I would like to welcome everyone to the 
Subcommittee on Biotechnology, Horticulture, and Research.
    For the past several months, the Committee has evaluated aspects of 
agricultural marketing. As we have observed, consumers, ourselves 
included, are becoming increasingly savvy. As the number of choices 
available to us have increased, so has our desire to locate and 
purchase products that appeal to a broader set of criteria. Consumers 
are seeking more and different food products, not only appealing to 
price and quality characteristics, but now also relating to various 
production methods such as grass-fed, natural, organic, or the use of 
technologies such as genetic engineering.
    While many farmers and ranchers are in the commodity business, some 
have been able to achieve market premiums by appealing to this new 
consumer demand and creating niche market opportunities for their 
products.
    By utilizing a variety of production practices, producers are 
distinguishing their products in order to appeal to unique consumer 
desires.
    Today we will be hearing from USDA regarding programs that allow 
the Agricultural Marketing Service to help producers and processors 
address consumer demand through development of voluntary and unique 
marketing claims.
    To distinguish and promote their products in the marketplace, USDA 
can assist producers using a variety of authorities including the 
Agricultural Marketing Act of 1946, and the Organic Foods Production 
Act.
    As this Committee has repeatedly observed, the keys to success in 
any marketing venture are voluntary participation, robust, transparent 
and meaningful standards, and comprehensive enforcement to ensure 
compliance.
    Most people are aware of the USDA Organic label, but may not be 
aware of the policies and procedures of the National Organic Program. 
Likewise, I'm sure many people have heard of and thoroughly enjoyed 
Certified Angus Beef, but may not know where to find the standards that 
are in place for this program; nor may they be aware of the procedures 
in place to assure that this label claim is truthful and not 
misleading.
    USDA's Agricultural Marketing Service has long been in the business 
of assisting producers develop the programs and tools to take advantage 
of market opportunities. As the Agriculture Committee considers 
proposals to develop other production-based marketing claims, we felt 
it useful to review USDA's authorities and procedures. It is my hope 
that the information collected from today's hearing will be of 
tremendous value as we continue to look for opportunities to improve 
agricultural productivity, profitability and sustainability.
    Before I turn to the Ranking Member, I want to briefly discuss a 
recent Supreme Court decision on a marketing order within this 
Subcommittee's jurisdiction. In the ruling on the Horne v. U.S. 
Department of Agriculture case, the Supreme Court held certain aspects 
of the raisin marketing order to be an unconstitutional taking. As with 
all marketing orders, these programs are initiated by each industry and 
they have the opportunity to withdraw a marketing order at any time. 
Our responsibility is to uphold the integrity of marketing programs, as 
they are a proven useful tool for many industries, while ensuring our 
growers are not adversely harmed in the process. We are beginning to 
have bipartisan discussions with USDA to determine the impact of this 
decision and may conduct additional hearings as the situation warrants.
    I now yield to the distinguished Ranking Member, Ms. DelBene.

    The Chairman. I now yield to my distinguished Ranking 
Member, Ms. DelBene, for her opening statement.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Chairman Davis.
    And thank you, Dr. Morris, for being with us here today.
    In recent years, the way the average consumer thinks about 
food has undergone a remarkable cultural transformation. Within 
a relatively short period of time, we have witnessed consumers 
rapidly moving from having little interest in products and 
where their food comes from to today's consumers seeing food as 
an exciting possibility, and with cooking now part of personal 
discovery.
    Most importantly, both for the consumer and for 
agriculture, food is no longer something that just appears on 
grocery shelves. It is inspected, scrutinized, and given 
careful thought. Consumers are the real drivers behind today's 
individualistic food environment, and it is within this newly-
developed foodie culture that the U.S. production agriculture 
now finds itself. Like most market evolution, there is both 
good news and not so good news.
    The good news is food entrepreneurs, both producers and 
processors, have an increasingly diverse consumer base for 
which to tailor their products. The not-so-good news is an 
ever-growing and potentially confusing array of production, 
processing, and questions. And while more information for the 
consumer is a good thing, we need to ensure that this 
information is displayed in an easy to understand and accurate 
way. And we also need to ensure that the information provided 
is grounded in sound science.
    I am pleased that the USDA's Agricultural Marketing Service 
is here today because of their expertise in overseeing these 
emerging labels. We need to know how to best deliver 
information to the consumer, what is working now, what isn't, 
and how we continually improve the current system. As the 
Committee exercises its responsibility in the area of marketing 
and labeling claims across the board, but including labels 
related to genetically engineered crops, it is critical that we 
all have a full understanding of the expertise that exists 
within AMS should Congress choose to move forward with any sort 
of new label.
    So, Mr. Chairman, I look forward to hearing from our 
witness today on this important matter, and I yield back.
    The Chairman. Thank you.
    The chair would request that other Members submit their 
opening statements for the record so that the witness may begin 
his testimony and to ensure that there is ample time for 
questions.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who are present at the start of the hearing. After that, 
Members will be recognized in order of their arrival. I 
appreciate the Members' understanding.
    The witness is reminded to limit his oral presentation to 5 
minutes. Your written statement will be included in the record.
    I would like to welcome, once again, our witness, Dr. Craig 
Morris, Deputy Administrator, Livestock Poultry and Seed 
Program, at the Agricultural Marketing Service of the USDA 
based here in Washington, D.C.
    Dr. Morris, please begin when you are ready.

            STATEMENT OF CRAIG MORRIS, Ph.D., DEPUTY
           ADMINISTRATOR, LIVESTOCK POULTRY AND SEED
         PROGRAM, AGRICULTURAL MARKETING SERVICE, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Morris. Chairman Davis, Ranking Member DelBene, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today. The position that I serve is as the Deputy 
Administrator of Livestock Poultry and Seed Program for USDA 
Agricultural Marketing Service, or AMS, whose mission is to 
facilitate the efficient fair marketing of U.S. agricultural 
products. Within AMS the Quality Systems Verification Programs, 
or QSVPs, offered to the agricultural industry, there are a 
family of user-fee funded, audit-based, third-party 
verification services. There are a number of QSVPs, including 
those known as export verification programs, or EV programs, 
which are negotiated between the United States and foreign 
governments to ensure U.S. products meet the requirements of 
foreign buyers and keep U.S. products competitive in an 
international marketplace.
    These EV programs are vital to reopening foreign markets to 
U.S. beef after our nation's first case of bovine spongiform 
encephalopathy. However, the QSVP I wish to focus on today is 
the highly visible USDA Process Verified Progam, or PVP. 
Currently, my program audits 51 different PVP companies, with 
approximately 190 different process verified marketing claims. 
Several PVP companies have labels in the marketplace featuring 
various market claims associated with the PVP shield. Examples 
of these marketing claims include use of antibiotics in animal 
agriculture, product availability, product palatability 
attributes such as tenderness and employee training in areas of 
animal welfare. Transparency of the standard behind the 
marketing claim and the knowledge that USDA is an independent 
auditor are the two key aspects of the PVP.
    Companies establish their criteria they want verified, 
write a quality management system program manual, then undergo 
rigorous audits by AMS to ensure that they are adhering to the 
standards they set for themselves.
    Recently, AMS approved a PVP for a company to verify their 
marketing claim that the food grade corn and soybeans processed 
at one of their facilities are tested to ensure they are at 
least 99.1 percent free of traits that would indicate genetic 
engineering and to market their products as non-GMO/GE.
    I also think it is important to point out what the PVP 
program does not do. The PVP program is a Process Verified 
Progam, and not a product verification program. In the example 
of the non-GMO/GE PVP mentioned above, this means that there is 
no USDA non-GMO/GE marketing claim standard. In other words, 
USDA has not established a standard for what merits a non-GMO/
GE marketing claim. Instead, the PVP verifies that the standard 
accompanied established for itself is transparent and being 
adhered to. By transparent, I mean that the standard behind the 
marketing claim is detailed on the USDA website, such as the 
specific GE traits being tested for, what testing methods are 
being used, the competency of those performing the tests, and 
that the USDA PVP website is available to any interested party 
to learn more about the basic of any PVP marketing claim.
    Second, the PVP is not a truth-in-food labeling program. 
Within the U.S. Government, with narrow statutory exception, 
regulatory bodies at the Food and Drug Administration and other 
agencies, such as the Food Safety and Inspection Service for 
certain commodities and not AMS are charged with ensuring that 
all food labeling claims, regardless of if they are associated 
with a PVP or not are truthful and not misleading. We have seen 
and heard that there is some confusion regarding how this non-
GMO/GE PVP relates to AMS's administration of the National 
Organic Program, or NOP. Therefore, I would like to offer some 
background differentiating those two programs.
    The NOP is a regulatory program within AMS that establishes 
national organic standards and protects the integrity of the 
USDA organic label through certification and proper 
enforcement. As authorized by Congress, under the Organic Foods 
Production Act, these organic standards assure consumers that 
products with the USDA seal meet consistent uniform standards.
    By contrast, USDA has not established standards for non-
GMO/GE claims. So, although the non-GMO/GE PVP outlined earlier 
does provide transparency and third-party verification, it is 
not establishing a national standard for what merits a non-GMO/
GE claim like we have done for the National Organic Program 
organic claims.
    In conclusion, AMS's audit-based services such as the USDA 
PVP allow producers to assure customers of their ability to 
provide consistent quality products, or services, but do not 
establish national standards for marketing claims. Again, thank 
you for the opportunity to testify today.
    [The prepared statement of Dr. Morris follows:]

   Prepared Statement of Craig Morris, Ph.D., Deputy Administrator, 
  Livestock Poultry and Seed Program, Agricultural Marketing Service, 
                                  U.S.
              Department of Agriculture, Washington, D.C.
    Chairman Davis, Ranking Member DelBene, and Members of the 
Subcommittee, thank you for the opportunity to testify on behalf of the 
U.S. Department of Agriculture (USDA) at today's hearing to discuss 
some of the management system audits offered by the Department in 
support of producer marketing programs. It is our hope that the 
information we provide will offer a better understanding of our current 
activities and our programs.
    I serve as the Deputy Administrator, Livestock Poultry and Seed 
Program, for USDA's Agricultural Marketing Service (AMS). AMS' mission 
is to facilitate the efficient, fair marketing of U.S. agricultural 
products, including food, fiber, and specialty crops. Within AMS, there 
are a family of user-fee-funded, audit based third-party verification 
programs and services available to the agricultural industry under its 
Quality Systems Verification Programs (QSVP). The QSVP are designed to 
provide suppliers the opportunity to assure customers of their ability 
to provide consistent quality products or services. Under a QSVP, a 
supplier's documented quality management system is verified through 
independent third-party audits conducted by qualified AMS staff. There 
are a few audit programs within the umbrella of QSVP that I will cover 
today.
Processed Verified Program
    One of these is the Process Verified Program (PVP) which provides 
agricultural businesses with third-party, objective verification of a 
particular standard or marketing claim. With today's label-conscious 
consumers, producers often rely on management system audits to support 
claims that help distinguish their products in the marketplace. USDA's 
PVP assures buyers that the producer's production processes that 
support specific marketing claims have been verified by an independent 
third-party audit conducted by AMS. Process verification based on an 
audit of company's quality management system is distinct from the 
testing and certification of a product to a specific standard. Only the 
latter can guarantee to the consumer that the product meets the 
requirements, such as GE-free or hormone-free. Process verification 
can, however, provide confidence that the company's management supports 
such claims.
    Companies with approved USDA PVPs make claims supported by their 
process verified points--these include age, source, feeding practices, 
or other raising and processing claims--and market themselves as ``USDA 
Process Verified'' with use of the ``USDA Process Verified'' shield and 
term. All label claims that are associated with a PVP or not, must be 
approved by the Food Safety and Inspection Service (FSIS) to determine 
if they are truthful and not misleading when associated with meat, 
poultry, or egg products in commerce that were produced under Federal 
Inspection. Separately, the U.S. Food and Drug Administration (FDA) is 
responsible for ensuring that labels for food under its authority are 
truthful and not misleading. It is the company's responsibility to 
ensure labels for foods other than meat, poultry and egg products are 
truthful and not misleading under FDA's requirements. The USDA Process 
Verified Program does not relieve the company of meeting regulatory 
requirements issued by other Federal Departments or USDA Agencies.
    Currently, AMS audits 51 different companies with PVP programs, 
which have approximately 190 different process verified points. Several 
companies with PVP programs have labels in the marketplace featuring 
various points with the USDA PVP shield. Examples of process points 
verified include: Perdue brand for cage free, tenderness guaranteed, no 
antibiotics ever, vegetarian fed, no animal byproduct fed chicken; 
Cargill's Shady Brook brand for ``No antibiotics used for growth 
promotion--antibiotics only used for treatment and prevention of 
illness'' turkey; and Tyson's no antibiotics ever chicken.
    Transparency and the knowledge that AMS is the independent auditor 
are key aspects of the PVP. The company establishes the criteria that 
they want verified, writes a Quality Management System Program Manual, 
and then undergoes rigorous audits by AMS to ensure they are adhering 
to the standards they set for themselves. Some examples of the 
marketing claims supported by process verification today are ``No 
antibiotics or hormones being fed or administered to animals'' and 
``Source verified to the farm or ranch of origin''. The two pillars of 
the PVP are that buyers and any interested party can come to the AMS 
website, required to be on any PVP consumer packaging, to see the 
specific details of the quality management system that serves as the 
basis of any PVP marketing claim and know that highly trained and 
independent employees are conducting the onsite audits of any approved 
PVP establishment.
    AMS utilizes the International Organization for Standardization 
(ISO) 19011:2002 guidelines for quality management systems auditing. 
These internationally recognized guidelines provide a format for 
evaluating program documentation to ensure consistent auditing 
practices and ensure confidence in AMS as an independent third-party 
verifier. AMS auditors undergo extensive training in ISO and audit 
principles, as well as training specific to the industry, process, and/
or claims they are auditing. AMS is committed to the transparency of 
its auditing services. AMS posts online a list of suppliers and the 
claims AMS verifies for all Process Verified Programs.
    The claims on food products associated with PVP's, like all food 
labeling claims, fall under the jurisdiction of either USDA's Food 
Safety and Inspection Service (FSIS) or the U.S. Food and Drug 
Administration (FDA). AMS's sole focus is auditing whether a subject 
firm followed the process it described in its PVP application. AMS 
approval of a PVP does not mean that the labeling of food produced 
using the process necessarily meets the regulatory requirements for 
food labeling enforced by FSIS and FDA.
    Recently, AMS approved the first PVP for a company wishing to 
obtain third-part verification for its a marketing claim that its 
products meet its desired standard of 99.1 percent non-genetically 
engineered (content, which the company is using as a basis for labeling 
the product as comprised of ``Non-GMO/GE Process Verified'' material. 
Under this new program AMS verifies that the processes and procedures 
are in place to support a claim that food grade corn and soybeans sold 
under the program are at least 99.1 percent free of traits that 
indicate genetic engineering. This means that the company can use the 
USDA Process Verified Shield, after prior approval by AMS officials, on 
the product labels or marketing materials that they use on the food 
grade soybeans and corn coming from the approved facility. These foods 
will not themselves be labeled for or sold directly to consumers.
    I think it is important to point out what this program does not do. 
First, this does not establish an approved claim for food safety nor 
does it establish a standard for food safety. Second, this is not a 
USDA marketing claim standard. USDA has not established a standard for 
what merits a marketing claim concerning the presence or absence of 
genetically engineered components in food regulated by USDA. Moreover, 
such a food labeling claim for plant-derived foods would fall within 
the regulatory purview of the FDA. In this case, the company 
established their own standard, terminology, and logo for the claim 
they wished to make and AMS simply verified that processes were in 
place and operational such that the firm could meet its own established 
standard. Such verification does not necessarily mean that any food 
labeling associated with the claim meets regulatory requirements 
enforced by FSIS or FDA. Third, the PVP is not a truth in food labeling 
program. Within the U.S. Government, the U.S. Food and Drug 
Administration (FDA), USDA's Food Safety and Inspection Service, and 
other agencies, and not AMS, are charged with ensuring that all food 
labeling claims are truthful and not misleading.
    And, finally, AMS did not create a ``Non-GMO/GE'' logo for this 
program. Logos that may begin to appear in commerce identifying 
products produced under a PVP are those developed by the specific 
establishments themselves. Those logos are the responsibility of the 
good producer and are subject to copyright by Federal agencies other 
than AMS. The only official, AMS-authorized mark on a product produced 
under any PVP will be the PVP Shield associated with the PVP website 
associated with the specific marketing claim.
Quality System Assessment Program
    A second audit service provided is the USDA Quality System 
Assessment (QSA) Program which provides companies that supply 
agricultural products and services the opportunity to assure customers 
of their ability to provide consistent quality products or services. It 
is limited to programs or portions of programs where specified product 
requirements are supported by a documented quality management system. 
The specified product requirements may be identified by the company or 
may be those outlined in a USDA Export Verification (EV) Program. To 
operate an approved QSA Program, a company must submit a documented 
program that meets the program requirements as outlined by AMS.
    One such QSA Program is our export verification (EV) program for 
pork products. EV Programs ensure that the specified product 
requirements are supported by a documented quality management system 
and are verified through independent, third-party audits conducted by 
AMS. For example, our EV Program for Pork to the Russian Federation 
ensures that:

  <bullet> Pork is free of tetracycline group antibiotics.

  <bullet> Slaughter facilities have implemented a tetracycline group 
        antibiotics testing program.

  <bullet> Facilities approved for export to the Russian Federation 
        have implemented a microbiological testing program for generic 
        Salmonella, Listeria monocytogenes, and total plate count 
        testing.
Certified Responsible Antibiotic Use Standard
    A final example of an AMS audit-based marketing program is the 
Certified Responsible Antibiotic Use (CRAU) Standard developed by 
School Food FOCUS (FOCUS) and The Pew Charitable Trusts (Pew). FOCUS 
and Pew sought to minimize the use of veterinary antibiotics that are 
identical or closely related to drugs used in human medicine and to 
offer schools a viable way to put poultry raised with responsible 
antibiotic use on menus. Poultry producers in conformance with CRAU are 
prohibited from using antibiotics with analogues in human medicine 
routinely or without clear medical justification. Use of antibiotics 
with analogues in human medicine must be rare, well documented, and 
prescribed by a veterinarian. Antibiotics that do not have analogues in 
human medicine have no further restrictions in this standard.
    The scope of the CRAU verification includes a comprehensive farm-
to-package review of relevant processes and facilities that include 
hatcheries, feed mills, farms/barns and processing/packaging sites. The 
audit must document systems for proper identification and segregation 
of CRAU product from farm to package. To meet the requirements of the 
CRAU standard, a poultry company must be audited by AMS.
National Organic Program
    We have seen and heard of some confusion in the press and elsewhere 
regarding these audit-based marketing claims and AMS' National Organic 
Program (NOP). Therefore, I would like to offer some background 
differentiating the two programs.
    The NOP is a regulatory program housed within AMS responsible for 
developing national standards for producing agricultural products 
labeled as ``organic''. These standards assure consumers that the 
production process for products carrying the USDA organic seal meet 
consistent, uniform standards. NOP regulations do not address food 
safety, nutrition or health.
    The Organic Foods Production Act of 1990 provided the authority for 
USDA to set these national standards for the production, handling, and 
processing of organically grown agricultural products. Statutory 
authority was also provided to enforce compliance with these standards, 
to accredit certifying agents, and to collect fees for accreditation 
services.
    NOP regulates the labeling of all organic crops, livestock, and 
agricultural products certified to USDA organic standards. Organic 
certification bodies inspect and certify that the production, 
processing and handling practices of farmers, ranchers, distributors, 
processors, and traders comply with the USDA organic regulations. USDA 
conducts audits and otherwise ensures that the more than 90 organic 
certification bodies operating around the world are properly certifying 
the production, processing and handling of products labeled as organic. 
In addition, USDA conducts investigations and enforcement activities to 
ensure the integrity of the products bearing the organic label. In 
order to sell, label, or represent their products as organic, 
operations must follow the specifications set out by the USDA organic 
regulations.
Conclusion
    Audit-based services support the ability of producers to make 
specific claims or to assure customers of their ability to provide 
consistent quality products or services. These claims can cover 
raising, feeding, handling, processing, labeling practices, or other 
practices and processes that differentiate a product. They do not 
establish that the claim is in conformance with applicable labeling 
requirements, nor do they establish any food safety standards. I hope 
that this testimony and subsequent questions will help this 
Subcommittee better understand current AMS activities and the many 
marketing programs offered by the agency. Again, thank you for the 
opportunity to testify today.

    The Chairman. Thank you, Dr. Morris.
    Since it is a fly-out day, I am going to reserve my 
questions for the end.
    So I would like to begin by recognizing the gentleman from 
Georgia, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. And, Dr. Morris, you 
hit a little bit on the process versus product issue. Could you 
expand on that briefly for us?
    Dr. Morris. Absolutely. What the USDA Process Verified 
Progam is about is that when a company establishes for itself a 
standard that it wants to adhere to, we insure that--
essentially, the internal quality management system within that 
company is operating as intended. It takes on two steps: One, 
we require a company to develop a documented quality management 
system. They submit that to us. We do a desk review of that to 
make sure that as written, that will deliver on the claim that 
they set for themselves. It will consistently produce a product 
that meets their standard. We then do on-site audits to make 
sure that in-plant, the things that they are doing reflect what 
we saw in the written manual. So it is all about them adhering 
to their own systems. But it is nothing about, at the end of 
the day, the product meets a certain USDA standard.
    Mr. Scott. So when the USDA set the standards for organics, 
for example, you are double-checking, if you will, them to make 
sure that they are complying with what they said their process 
was? Am I understanding that correctly?
    Dr. Morris. Somewhat, yes. In the case of the National 
Organic Program, Congress provided us express authority to 
develop national standards for what merits an organic claim. So 
we actually have a standard for what meets an organic claim. 
Then we have specific enforcement powers and investigation 
powers provided to us, again, by Congress, and implemented 
through regulation, and we go out and accredit the certifiers 
to make sure that they are competent as a certification body in 
performing the certifications on farm organic agriculture.
    Mr. Scott. Could you speak to the impact of the mandatory 
labeling in general as compared to the voluntary labeling and 
the differences in the supply chain and the costs to the 
consumer of the products.
    Dr. Morris. The U.S. marketing chain is very dynamic, and 
there is really not a one-size-fits-all approach. Clearly, in 
the cases of the organic program, Congress provided USDA with 
specific authority to set a single national standard. In many 
cases, the marketplace works quite well through a process 
verification where the industry sets for itself standards that 
it basically adheres to.
    So there is not necessarily one specific approach that 
works best in any one situation. We do, obviously, though, look 
to Congress for input in terms of the specific areas that would 
merit standardization nationally.
    Mr. Scott. But if there were no uniform standard, I am from 
Georgia, you could have one standard for Atlanta; you can have 
another standard for Augusta; one for Tifton; one for Columbus; 
one for Macon, and that would create disruptions in the supply 
chain, I would assume, and maybe the consumer didn't actually 
know what they were getting.
    Dr. Morris. Well, and that gets to exactly the reason the 
PVP was developed. The purpose of the PVP, what it was designed 
to do, is when you see similar claims in commerce, to be able 
to have transparency back to what is the standard behind that 
claim. So what the PVP is trying to do is give consumers that 
ability to go back and see those different standards that are 
in place in the marketplace. But we have many standards 
oftentimes, and they operate quite well.
    Mr. Scott. Without those standards, I would suggest it 
would be inconsistent and confusing.
    Dr. Morris. And they can be, yes.
    Mr. Scott. I am sorry?
    Dr. Morris. And they can be, yes, if there is not 
transparency back to the standards themselves.
    Mr. Scott. I am going to yield the remainder of my time, 
Mr. Chairman. But I may come back and ask another question as 
time goes on.
    The Chairman. The gentleman yields back.
    The chair recognizes Ranking Member DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman.
    And thank you again, Dr. Morris, for being here. One of my 
main concerns when we are talking about any potential GMO or 
non-GMO certification program is that it not conflict in any 
way with the organic regulations or process that is already in 
place. Many in the industry, though certainly not uniformly, 
view organic certifications as the gold standard. And so I was 
wondering, in your opinion, would the current organic 
certification be sufficient to be labeled as non-GMO?
    Dr. Morris. Well, yes. Anything that is USDA organic is, by 
definition, non-GMO, as genetically engineered crops are not 
allowed to be used in that system. Now, I have to recognize 
that I do not oversee the National Organic Program. I have a 
peer, Deputy Administrator, Miles McEvoy, and if you would 
like, we can provide you with additional information in written 
form after I have had an opportunity to confer with him that 
goes into much more detail about how the National Organic 
Program not only controls that issue, but allows for the 
marketing of those products as non-GMO or non-GE.
    Ms. DelBene. I would appreciate that. That would be 
helpful.
    And in today's fiscal environment where resources are 
definitely scarce all around, I worry that with the new 
certification process, resources could be diverted away from 
other important programs, not only organic programs but 
programs across the board. So can you comment on how this might 
be avoided, or are more resources needed if we were going to 
have other programs that were going to be available?
    Dr. Morris. The PVP that we operate today is fully user-fee 
funded. So we establish a fee rate that is cost recovery. It 
basically pays for the caliber of the employees that we have 
carrying out the activities. So there are no appropriations 
required for carrying out the PVP.
    Ms. DelBene. And any other particular programs that might 
be put together would probably be user-funded as well then?
    Dr. Morris. Yes. The only issues that we would potentially 
have would be the development of standards, or things like 
that, the Subcommittee could be contemplating that we would 
need some source of funds to recover.
    Ms. DelBene. You also talked earlier about the need for a 
quality management system. And so I wondered if you could 
describe what that is, and are they used in areas other than 
agriculture?
    Dr. Morris. Yes. Quality management systems are used 
extensively. They are used extensively in the manufacturing and 
service industries. Essentially, a quality management system is 
a collection of the business processes that are focused on 
meeting a customer's requirements. It is expressed at the 
organizational structure, the policies, the procedures, the 
processes and resources needed to implement quality management. 
There are a number of different quality management system 
regimes out there, but far and away, the ISO 9000 family of 
standards is the most widely implemented worldwide, and those 
are the standards that we have chosen to implement as the basis 
of our Process Verified Program.
    Ms. DelBene. And you brought out the ISO, International 
Organization for Standardization. And why do you use their 
guidelines, and so how did you go about using their guidelines, 
and how did they establish them?
    Dr. Morris. Without question, the ISO is the world's 
largest developer of voluntary international standards. They 
facilitate worldwide trade by providing that common set of 
language between nations. They have nearly 20,000 different 
standards at the ISO that cover everything from manufactured 
products and technology to food safety, to agriculture, health 
care. It basically allows products from different markets to be 
directly compared. When we established the Process Verified 
Progam, we wanted it to have international recognition. We knew 
that our audit-based services under the broader class of what 
we call the quality service verification programs would need to 
have recognition from foreign governments so that we could keep 
U.S. agricultural products flowing. That is why we chose to use 
that as the basis of our program.
    Ms. DelBene. Thank you.
    That completes my questions. I will yield back.
    The Chairman. Wow. Succinct hearing. We actually have 
Members yielding back time.
    Mr. Moolenaar is recognized for 5 minutes.
    Mr. Moolenaar. Thank you. And my apologies for being late. 
I missed some of your testimony. In general, there has been a 
lot of discussion. And when people meet with me, there is this 
question of voluntary versus mandatory. And you may have 
addressed that already in some of your comments, but do you 
have any thoughts on that?
    Dr. Morris. Well, it is very similar to the issue of 
whether or not there needs to be a single national standard for 
every single marketing claim out there. I think voluntary 
versus mandatory works well in different situations. We have, 
in AMS, a number of mandatory programs and a number of 
voluntary programs, both of which we believe are doing an 
outstanding job of facilitating marketing. It really depends on 
the context of the specific issue in play.
    Mr. Moolenaar. And just, could you speak a little bit about 
some of your voluntary marketing programs and, again, maybe 
some of those you have already, but how effective are they?
    Dr. Morris. You would be hard-pressed to go to a grocery 
store and not see the product of a lot of our voluntary 
marketing programs. Everything from USDA choice beef to grade A 
eggs to certified Angus beef, to a lot of the claims that you 
would see on particular products related to responsible use of 
antibiotics, or humanely-raised claim. All of those are 
voluntary activities. So these are companies that have decided 
to voluntarily differentiate themselves from the marketplace 
and utilize AMS as their third-party auditor, and then also 
have the transparency behind the standards that they have set 
for themselves, not only available on the USDA website, but 
available to anybody that would seek that information.
    Mr. Moolenaar. In terms of the compliance with the 
standard, how does that work?
    Dr. Morris. Well it depends on the program. For a number of 
our mandatory programs, we have express authority provided to 
us for investigation and enforcement. In the case of our 
voluntary programs, companies, especially PVP companies, they 
have basically chosen to differentiate themselves from the 
broader market. They have chosen to hold themselves up as a 
company that not only has transparency but is following through 
on their standards. In that situation, if a company has built a 
brand around a PVP and then loses that PVP, that penalty alone 
is quite significant to that company in the marketplace.
    Clearly, in the course of our audits, both desk and on-
site, we do find non-conformance. We have had firms that have 
lost their process verified status. That impacts their ability 
to continue to sell products as process verified, and really 
undermines the brand that they have developed for themselves.
    Mr. Moolenaar. So you have, after conducting an audit, if 
you find irregularities, do you notify them and then give them 
an opportunity to comply, or is it immediate loss of status?
    Dr. Morris. It depends on the severity of the non-
conformance. We have minor non-conformance that we can deal 
with in follow-up audits, we are requesting corrective and 
preventive action. We have significant non-conformance that can 
render a program immediately unapproved, and we are actually at 
that point looking back in to the product that was produced 
since the last audit. So it really varies based on the issues 
at play. We have for-cause audits that we will see things occur 
in the marketplace or have third parties bring to us products 
that they don't believe to be conforming, and that could 
initiate us coming in and doing an on-site for-cause audit, 
which then, again, can affect their approval.
    Mr. Moolenaar. Well, thank you very much.
    And, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    The gentleman from Massachusetts, Mr. McGovern, is 
recognized for 5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman.
    And thank you, Dr. Morris, for being here. I appreciate all 
the work that you do. This is an interesting hearing, in the 
context of something that we are beginning to talk about in 
this Committee, and in other committees, about the issue of GMO 
labeling. Voluntary versus mandatory, or only voluntary non-GMO 
labeling. Quite frankly, I am puzzled by this debate, because I 
fall on the side of the fact that if a majority of people in 
this country want there to be GMO labeling so they know what 
they are buying, then I am for it. I am not making any judgment 
about the safety or the quality of the food. We have all been 
eating GMOs for a long time, but if a majority of people want 
to know that information, why shouldn't we give it to them?
    There is a recent poll from the Mellman Group that found 
that Americans overwhelmingly favor requiring labels on GMO 
food: 71 percent of Americans strongly favor GMO labeling. And 
I guess the argument against the voluntary stuff is that some 
might do it, some might not, but it just makes it more 
difficult for the consumer in my mind. I am not asking you to 
take a position, but if you are going to come up with a 
standard for what is non-GMO, wouldn't it just be simpler for 
the consumer to have one label that indicates whether something 
contains GMOs?
    Dr. Morris. In AMS, we carry out both kinds of programs, 
mandatory labeling programs and also our voluntary labeling 
programs. Again, the voluntary labeling programs are carried 
out on a fee-for-service basis. So these are companies that are 
choosing to differentiate themselves in the market hoping to 
command a premium for their products because, obviously, they 
are paying for the verification service that we provide.
    So the question is one of is it appropriate for companies 
to try to demand a premium for the product, which is what 
people obviously use AMS for with our Process Verified Progam 
and other voluntary marketing programs, or in the mandatory 
scheme that we carry out in other areas where we have been 
provided authority by Congress.
    Mr. McGovern. Right. We have heard a lot of talk that, the 
mandatory route, will cost all this money, it is going to cost 
the consumer money. And yet I am reading from the Washington 
Post Fact Checker that says that people who claim that 
mandatory labeling is going to cost consumers significantly 
more in groceries per family per year, earned three Pinocchios. 
Does AMS have any evidence on the cost to consumers on 
mandatory versus voluntary labeling?
    Dr. Morris. No. Again, because the voluntary programs 
basically go where the market wants them. And so we don't 
typically sit down on our voluntary programs and determine the 
return on investment, because a company is making that decision 
when they approach us. And so as we dealt with on this 
particular firm that we were discussing during the testimony, 
they have made a business decision that the investment in AMS 
auditing is going to help them command a premium in the 
marketplace for their products. That is a very different model. 
So we don't track the mandatory versus voluntary unless we are 
going into an environment where we are given authority by 
Congress to require labeling.
    Mr. McGovern. So basically at this point, if Congress said 
to you we want mandatory GMO labeling, you would then----
    Dr. Morris.--conduct an economic analysis.
    Mr. McGovern. All right. I thank you and I raise the issue 
because I have been at a number of briefings where people 
talked about the pros and cons of GMO foods and how they fit 
into our society right now. It just seems to me that the more 
people resist giving the public what they want, the more the 
public begins to suspect maybe there is something wrong with 
these products. I think sunshine and transparency are a good 
thing. So I would hope that Congress would move along the line 
of greater transparency and giving the American people what 
they want. I thank you very much for being here.
    Dr. Morris. Thank you.
    The Chairman. The gentleman yields back.
    Does the gentleman from Massachusetts wish to produce his 
poll or his Pinocchios for the record?
    Mr. McGovern. Absolutely. Thank you. With unanimous consent 
and all the other blessings you would give me.
    The Chairman. Without objection.
    [The information referred to is located on p. 21.]
    Mr. McGovern. Thank you.
    The Chairman. Dr. Morris, again, I appreciate you being 
here. I am going to go ahead and ask you a few questions 
myself.
    I mentioned this in my opening statement about the Supreme 
Court's decision in the case involving volume control 
components of the raisin marketing order. And the court held 
the requirement for producers to surrender a portion of their 
crop without just compensation to be an unconstitutional 
taking. Can you provide, for the record, an analysis of this 
decision, and in particular, what, if any, implications this 
decision has for this or other marketing orders?
    Dr. Morris. Absolutely. As I opened with my statement, the 
efforts of AMS are divided primarily on commodity lines, and I 
don't actually have marketing orders under my purview. Let me 
go back to the Department and we will work with our Office of 
the General Counsel and Department of Justice and prepare 
something for you in writing.
    The Chairman. Thank you. Thank you. And for the record 
too----
    Dr. Morris. Yes.
    The Chairman.--you already oversee a program that is 
synonymous with non-GMO, that is organic. So can you tell us, 
for the record today, that if one buys an organic product, 
certified organic product, meets all the standards, that it 
does not include genetically modified seeds?
    Dr. Morris. Now, again, I have a peer, Deputy Administrator 
Miles McEvoy. He is the Deputy Administrator of the National 
Organic Program. Let me go back with him, and we will prepare 
for you, for the record, a much more expansive reply.
    [The information referred to is located on p. 21.]
    The Chairman. All right. And the organic program sets a 
single standard for organic marketing claims, though?
    Dr. Morris. Correct.
    The Chairman. Can we fairly conclude the establishment of 
this voluntary and transparent standard for organic has helped 
actually build the market for those products?
    Dr. Morris. Yes. I think that would be a fair conclusion.
    The Chairman. Okay. All right. I will reserve the balance 
of my time and recognize Mr. Scott, again, for a second round 
of questions.
    Mr. Scott. Thank you, Mr. Chairman. And one of the things 
that I do think is important to point out is that the certified 
Angus, if you will, that is a voluntary. And I sold Angus cows 
with my grandfather for a long time. We also had a commercial 
herd. When we sold our Angus cows, we didn't imply that the 
Limousin Brahman Angus mix cows were unsafe, if you will.
    And some of the, if you will, things that are being said 
about the use of biotechnology in agriculture is confusing, and 
in the end, misleading. We use less fertilizer, less 
pesticides. Biotechnology has been good for the environment, 
has been good for the producer, and has been good for the 
consumer. But one of the key differences in the certified Angus 
voluntary labeling and what we are facing right now is we are 
facing mandatory labeling from a government, in some cases, 
states, in some cases they are trying to do it at the local 
level. And I guess my question for you is, if somebody passed a 
standard, let's say, for whatever city we want to call--let's 
say they want to pass one for Washington, D.C., who would 
certify that?
    Dr. Morris. Well, that would be up to the firm that would--
well, I guess it would be up to the city or the municipality 
that has passed that requirement. So we have not been 
approached at AMS about carrying out any mandatory labeling 
programs for genetically engineered products.
    Mr. Scott. So if a state, for example, we have seen states 
go down this path, who would certify that at the state level?
    Dr. Morris. That would have to be determined at the state 
level.
    Mr. Scott. And so the USDA wouldn't have to?
    Dr. Morris. There are a lot of different agencies that 
relate to food labeling. AMS deals, with the exception of those 
areas, we have mandatory labeling programs or specific 
statutory authority to set standards. Most of what we are 
dealing with, most of what I particularly deal with, are these 
voluntary mandatory claims that are used at the national level. 
We would probably need to go back and consider the impacts of 
some of the state level labeling laws and what impact that 
would have on USDA, or more broadly, the Executive Branch. I 
probably need to follow up with you on that, because that gets 
outside of, really, my scope.
    Mr. Scott. Somebody would have to pay for that labeling. 
Somebody would have to pay for that standard. The state or 
whoever passed that law would have to contract with somebody to 
do that. And I guess that is where I think that we are headed 
down a very dangerous path here for the consumer where, if 
something is not done here, then you are going to see more 
inconsistency and more confusing scenarios for the consumer. 
The USDA is the standard for guaranteeing that we are getting 
what we purchase when we go to the store.
    Mr. Chairman, there is a lot that needs to be done here to 
protect the consumer to make sure the consumer understands 
actually what they are getting, and there is a uniform 
standard.
    Thank you for your testimony.
    Dr. Morris. Thank you.
    The Chairman. The gentleman yields back.
    The gentleman from Michigan is recognized, Mr. Moolenaar, 
for 5 minutes.
    Mr. Moolenaar. Thank you, Mr. Chairman. And, again, thank 
you for your testimony, Dr. Morris.
    I wonder if you can help me with some of the definitions 
that you hear a lot. There is genetically engineered, 
genetically modified. Are those synonymous terms?
    Dr. Morris. Well, genetic engineering is really the method 
used to arrive at the claim. In the case of genetically 
modified, genetically modified organism, GMO, those are terms 
that consumers rightly or wrongly are associating with a class 
of products that they are wanting to seek more information 
about or have an opinion about one way or another. So 
genetically engineered is the technology that is arriving at 
this class of foods that are often labeled as non-GMO, there is 
a lot of Federal guidance in this area. But there are different 
kinds of genetic--it is very complicated. We can get back to 
you with a little bit more in writing if you want in terms of 
some of the different technologies and how they are applied. 
But genetic engineering is clearly the proper term for this 
class of foods that we are discussing.
    Mr. Moolenaar. So it is the means of genetic modification 
that is the genetic engineering?
    Dr. Morris. Correct.
    Mr. Moolenaar. Some of the modifications occur in nature, 
do they not?
    Dr. Morris. Absolutely.
    Mr. Moolenaar. Could you speak to that?
    Dr. Morris. Yes. In the case of the non-GMO/GE PVP that we 
have approved, we are specifically looking for those traits 
that indicate genetic engineering. So an example, and let's say 
livestock, where you can naturally select cattle that are 
pulled without horns. Or you can go with gene editing and kind 
of preordain that you have decided that this is going to be a 
pulled animal more efficiently than if you went through natural 
selection. Those are very different things.
    So in the case of our non-GMO/GE program, we are really 
looking for those traits that wouldn't be arrived at through 
natural selection that are much more genetic engineering as 
opposed to some of the gene editing and some of those other 
things.
    Mr. Moolenaar. And how do you handle that with respect to 
natural. Because if certain things are being genetically 
modified naturally, how do you approach that?
    Dr. Morris. AMS doesn't regulate the term natural for meat, 
poultry, and egg products, our sister agency, the Food Safety 
and Inspection Service, and for all of the commodities, the 
Food and Drug Administration. So natural claims fall in a whole 
different area that are somewhat independent or on a separate 
stream from the debate we are having on non-GMO/GE.
    Mr. Moolenaar. Okay. Thank you. I appreciate it.
    I yield back.
    The Chairman. The gentleman yields back.
    The gentleman from Washington, Mr. Newhouse, is recognized 
for--I haven't figured out how long yet, because he is late--
for 5 minutes.
    Mr. Newhouse. So I will make up some time a little bit 
there. Thank you, Mr. Chairman, I appreciate that. I apologize 
for my lateness, but I can assure you, I was doing good work.
    I appreciate you being here, Dr. Morris. I don't really 
have a question as such, so I won't take much time. But I just 
wanted to expound on what I understand my colleague from the 
State of Washington and our Ranking Member, Ms. DelBene, was 
asking, if I could.
    Under current USDA regulation, is, in fact, the case that 
biotech products are not allowed to be certified organic? I 
would like to read an excerpt from the USDA blog from a post 
titled Organic 101, Can GMOs Be Used in Organic Products? And 
that was dated May 17, 2013. So if I may, just to enter it into 
the record.
    ``The use of genetic engineering, or genetically modified 
organisms (GMOs), is prohibited in organic products. This means 
an organic farmer can't plant GMO seeds, an organic cow can't 
eat GMO alfalfa or corn, and an organic soup producer can't use 
any GMO ingredients.''
    The reason, Mr. Chairman, that I raise this point is 
because it is frustrating to me that USDA already has this, 
what I would call a great voluntary tool for consumers to know 
what is in the food and products that they purchase, but that 
some jurisdictions feel compelled to impose duplicative, 
costly, and mandatory burdens on consumers and producers that, 
as far as can be seen from the USDA's own blog, add no 
additional benefit. So ultimately, I believe this Congress and 
this Committee will likely have to consider legislation to 
ensure that our farmers, ranchers, growers, producers, and 
families aren't harmed by these costly unworkable rules. And 
that is not necessarily a question, but just a statement, and I 
wanted to make sure I got that in the record.
    And with that, Mr. Chairman, I would yield back.
    The Chairman. Let the record show the gentleman yielded 
back 3 minutes of time.
    Thank you, Mr. Newhouse.
    And I want to go ahead and get into a few more questions 
with you, Dr. Morris. And we are waiting on possibly another 
Member to get here to ask a few questions.
    Obviously, there has been a lot of discussion about H.R. 
1599, and I would like to know, has the USDA taken a look at 
the USDA-related portions of H.R. 1599, the Pompeo-Butterfield 
bill?
    Dr. Morris. Yes. We have looked at the legislation. We have 
worked with technical assistance with the Subcommittee, 
absolutely.
    The Chairman. All right. If the non-GE certification 
provisions included in the Pompeo-Butterfield bill were 
enacted, would that give the USDA the authority to establish a 
standard for non-GE food labeling programs?
    Dr. Morris. We are familiar--as I stated, we are familiar 
with the legislation as introduced. Our read of the bill is 
aimed at providing authority to establish a standard, but 
certainly there are many aspects of the legislation, and we 
continue to analyze its impact if it is enacted in its current 
form. It does affect many agencies in the Department, so we are 
working through that.
    The Chairman. All right. Under the bill, the USDA is 
instructed to promulgate regulations establishing a non-GE 
labeling program. When the agency promulgates regulations to 
implement such programs as they did with the National Organic 
Program, what kind of opportunity is typically available for 
the public to comment and influence the rulemaking process?
    Dr. Morris. Again, without final legislation explicitly 
directing us on what to do, there are several processes that we 
could use. With our standard rulemaking process, we typically, 
we always do provide the public with multiple opportunities to 
comment. Again, we don't have the final legislation or our 
regulatory guidance at this time.
    The Chairman. And we don't have the final legislation 
either, hopefully you can come back and we can have further 
discussion.
    But my last question, some observers assert that because 
some consumers desire information concerning the use or nonuse 
of genetic engineering, all consumers should pay the price 
through mandatory labeling schemes. I know that some other 
Members mentioned this process with you, but it seems to me 
that USDA's voluntary labeling programs provide additional 
information to consumers about how their food was raised or 
produced, and they do so in a manner that adds value to the 
agricultural production, marketing claim.
    Would you agree that the USDA's labeling programs provide 
value?
    Dr. Morris. In short, yes. As we stated, these services are 
provided for a fee. So the private-sector is very smart, that 
they are making a decision that there is a value in paying for 
the service that we provide.
    The Chairman. So you agree these labels provide useful 
information to consumers who actually desire it?
    Dr. Morris. Yes.
    The Chairman. Okay. Well, I have no further questions.
    I will yield to the Ranking Member for any last questions 
or closing statement.
    Ms. DelBene. I have no further questions. I want to thank 
you, again, for being here and appreciate your follow-up on the 
earlier information from your colleague.
    Dr. Morris. You bet.
    Ms. DelBene. Thank you.
    The Chairman. Today, the Subcommittee examined the tools 
and capabilities of USDA's Agricultural Marketing Service to 
assist food producers to market their products. As we look more 
closely at the types of products consumers are demanding, we 
need to have the programs in place to ensure that the claims 
made on product labels are truthful and not misleading.
    The farmers want and need to provide consumers with the 
products they desire. And as we have just heard, the 
Agricultural Marketing Service has the tools and expertise to 
provide consumers with the information they want in a manner 
that supports interstate commerce.
    We will soon consider a substitute amendment to H.R. 1599, 
the Safe and Accurate Food Labeling Act, which seeks to put in 
place the policy to make this work. That substitute is 
circulating in draft form and will continue to go through 
refinement as we near Committee consideration. Consumers are 
now being exposed to arbitrary and inconsistent label claims, 
some for non-GE products such as salt, where there is obviously 
no genetically engineered salt. Consumers will benefit from 
legislation under consideration, which would establish a 
national uniform and voluntary marketing approach to these 
label claims. The House Committee on Agriculture has a long 
history of involvement in developing policies to further the 
advancement of agricultural biotechnology. We are aware of the 
incredible potential this technology brings to food and fiber 
production. With biotechnology, the careful and precise 
addition of one or a few genes to a plant may make it more 
productive and nutritious, more tolerant to environmental 
stresses such as drought, and more resistant to disease and 
pests.
    These technologies can likewise improve the efficiency and 
therefore, the productivity of agriculture, while at the same 
time, reducing detrimental effects on the environment. These 
and other advances have enabled us to enjoy the safest highest 
quality, most abundant and affordable supply of food and fiber 
in mankind's history. As our knowledge has increased, so has 
the speed and precision in which we are able to harness natural 
capabilities to improve the plants that we cultivate.
    We just heard from the USDA that they have the capability 
and resources to provide the valuable oversight of these 
voluntary marketing claims. We know from previous hearings in 
this Committee as well as the Energy and Commerce Committee 
that we have a robust regulatory review process to ensure 
human, plant, and animal health as well as environmental 
health. We look forward to everyone's thoughtful review and 
constructive suggestions. And with that, I want to thank the 
witness for his time here today. I look forward to having you 
back in front of this Subcommittee to discuss this legislation 
further.
    And with that, under the rules of the Committee, a record 
of today's hearing will remain open for 10 calendar days to 
receive additional material and supplementary written responses 
from the witness to any questions posed by a Member. This 
Subcommittee on Biotechnology, Horticulture, and Research 
hearing is now adjourned.
    [Whereupon, at 2:16 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    Supplementary Material Submitted by Craig Morris, Ph.D., Deputy
    Administrator, Livestock Poultry and Seed Program, Agricultural
           Marketing Service, U.S. Department of Agriculture
Insert
          The Chairman. Thank you. Thank you. And for the record too--
        --
          Dr. Morris. Yes.
          The Chairman.--you already oversee a program that is 
        synonymous with non-GMO, that is organic. So can you tell us, 
        for the record today, that if one buys an organic product, 
        certified organic product, meets all the standards, that it 
        does not include genetically modified seeds?
          Dr. Morris. Now, again, I have a peer, Deputy Administrator 
        Miles McEvoy. He is the Deputy Administrator of the National 
        Organic Program. Let me go back with him, and we will prepare 
        for you, for the record, a much more expansive reply.

    The use of GMO seeds is prohibited with no exceptions. The USDA 
organic regulations at 7 CFR  205.204 require that organic producers 
use organic seeds, annual seedlings, and planting stock. The 
regulations allow producers to utilize non-organic seeds and planting 
stock when equivalent organic varieties are not commercially available, 
however this allowance does not extend to the allowance of GMO seeds.
                                 ______
                                 
   Submitted Article by Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
Washington Post
Fact Checker
Would GMO labeling requirement cost $500 more in groceries per family a 
        year?
By Michelle Ye Hee Lee
April 6, 2015
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          (Erich Schlegel/AP Images for GMO Answers)

          ``Having a series of different and conflicting state and 
        local GMO labeling mandates will increase grocery prices for 
        consumers by hundreds of dollars per year. Grocery costs for a 
        family could increase by an average of $500 per year under GMO 
        labeling mandates, according to a Cornell University study.''--
        Coalition for Safe Affordable Food, news release on website 
        (http://coalitionforsafeaffordablefood.org/news/2015/03/25/
        coalition-safe-affordable-food-hails-introduction-federal-food-
        labeling-legislation), March 25, 2015

    There's a lot of buzz over ``GMO labeling,'' though polls 
consistently have shown that consumers don't know much about it. 
Genetically modified organisms, also called GMO, genetically modified 
food, genetically engineered food, are crops whose genes are altered 
using biotechnical techniques. Plants are bred to have certain 
characteristics, such as being more resistant to herbicides or pests, 
or to better withstand drought. Food and food ingredients made from 
such crops have been in the food supply since the 1990s (http://
www.fda.gov/Food/FoodScienceResearch/Biotechnology/ucm346030.htm).
    A huge portion of commonly grown crops in the United States are 
modified this way, especially corn, soybeans and cotton. For the most 
part, genetically modified crops are considered safe. But the debate is 
over whether food products should be required to be labeled as 
genetically modified.
    Last year, Vermont became the first state to require food makers to 
label products that include GMOs. The requirement goes into effect in 
July 2016. There are efforts in more than 20 states to require GMO 
labels. The debate is picking up steam on a national level as Congress 
debates a bill that would trump states' decisions to mandate GMO 
labeling.
    The Coalition for Safe Affordable Food is one of the bill's 
proponents, which include many food industry groups, who want to see a 
voluntary labeling system.
    Would mandating GMO labels really cost an additional $500 per year 
for a family of four?
The Facts
    A bipartisan bill, (http://www.washingtonpost.com/blogs/wonkblog/
wp/2015/03/25/is-your-food-genetically-modified-if-congress-moves-on-
this-you-may-never-know/) proposed by Reps. Mike Pompeo (R-Kan.) and 
G.K. Butterfield (D-N.C.), would block states from requiring GMO 
labeling. Instead, it would set up a voluntary labeling program that 
would certify foods that do not contain GMOs.
    Those who want labeling say they want a nonjudgmental, back-of-
package wording. The point, advocates say, is to allow consumers to 
make informed decisions, if they care about whether foods contain GMOs. 
Just as people look for the amount of transfats, sodium, sugar or any 
other ingredient they care about, consumers would be able to see that 
the product may contain GMO ingredients.
    Both sides largely agree that simply adding the wording would not 
drive up consumer costs. Companies regularly update their food 
packaging as they come up with new designs or marketing strategies. But 
those who oppose mandatory labeling say the requirement would drive up 
costs because it would change manufacturers' and consumers' behaviors.
    A study by Cornell University Professor William Lesser found that 
if GMO labeling is required in New York, a family of four would pay 
$500 more (http://dyson.cornell.edu/people/profiles/docs/
LabelingNY.pdf) each year. Lesser uses consumer surveys to project the 
demand for products that contain, and are labeled as containing, GMO 
ingredients. Demand for non-GMO products will grow in part because the 
labeling is perceived as a warning. To remain competitive, companies 
then would need to create new products without GMO ingredients. Non-GMO 
ingredients, especially corn and soybean, tend to be more expensive.
    Companies would, therefore, spend more money on ingredients and on 
producing, warehousing and stocking these new non-GMO products in 
supermarkets. The study assumes that all cost increases will be passed 
along to food consumers, as opposed to being absorbed by the companies 
or supermarkets.
    Lesser said he used these assumptions because polls show that 
consumers would be less likely to buy consumer products labeled as 
containing GMO. Competition would drive companies to switch to non-GMO 
ingredients, he wrote to The Fact Checker.
    A December 2014 Associated Press--GfK poll (http://ap-gfkpoll.com/
main/wp-content/uploads/2015/01/AP-GfK_Poll_December_2014_.pdf) found 
66 percent of Americans favor ``requiring food manufacturers to put 
labels on products indicating if they contain genetically modified 
ingredients.'' Among those polled, 42 percent said knowing whether food 
was genetically modified was extremely or very important in judging 
whether it's a healthy choice, while 28 percent said it was moderately 
important.
    An August 2014 Pew Research survey (http://www.pewinternet.org/
2015/01/29/public-and-scientists-views-on-science-and-society/) found 
57 percent of Americans said it was ``generally unsafe'' to eat 
genetically modified foods, while 37 percent said it was safe. A 
parallel survey of scientists showed this was the single largest 
disagreement between scientists and the general American population; 88 
percent of scientists said it was safe to eat GMO foods. Just 28 
percent of the public perceived scientists had a clear understanding of 
the health effects of GMOs. (Hat tip to The Washington Post poll 
analyst Scott Clement for combing through the data.)
    Labeling advocates say Lesser's study makes unrealistic 
assumptions.
    There are many factors other than ingredient costs that affect 
retail price, according to a study commissioned by Just Label It! 
(http://www.justlabelit.org/wp-content/uploads/2013/09/Kai-Roberston-
Food-Labeling-Study-2013.pdf) A food processor's costs fluctuate, but 
several factors deter companies from raising or lowering their retail 
or wholesale prices because of ``price stickiness,'' the study says. 
That means prices tend to remain constant despite changes in supply and 
demand, in part because companies are not willing to risk losing long-
term customers by raising prices. Plus, setting and advertising new 
prices is costly on its own.
    Consumers Union, which supports mandatory labeling, estimates the 
median cost of designing and labeling a product as containing GMOs 
would be just $2.30 per person per year. (https://consumersunion.org/
wp-content/uploads/2014/09/GMO_labeling_cost_findings_Exe_Summ.pdf) But 
these costs may not necessarily be passed on to consumers, they say.
    A 2011 study by the USDA looked at the impact of labeling on 
consumer behavior and market prices in countries that mandated GMO 
labels. Even large warning labels on the front of packages are not 
guaranteed to attract consumer attention, the study says.
    Evidence suggests that consumers are just as likely to overlook GMO 
labels as other labels, according to USDA researchers. This is in part 
because food labels contain a lot of information, and consumers tend to 
look for labels that matter to them. Even if they do look at every 
single piece of information on a label, they have a hard time 
prioritizing what matters the most.
    Researchers did not find significant retail price increases 
resulted from labeling requirements in other countries. Advocates on 
both sides point to Ben & Jerry's, which switched to non-GMO products. 
The premium for non-GMO ingredients ranged from 5 to 20 percent, The 
Wall Street Journal reported. (http://www.wsj.com/articles/the-gmo-
fight-ripples-down-the-food-chain-1407465378) But Ben & Jerry's planned 
to absorb the costs rather than pass them on to customers.
    Yet it is impossible to know how many companies will act as Ben & 
Jerry's did, said Claire Parker, spokeswoman for the Coalition for Safe 
Affordable Food, which opposes mandatory labeling. Smaller companies, 
in particular, would not be able to do so, she said.
    It is important to consider how consumer behavior would change, and 
supporters of mandatory labeling are downplaying the costs, according 
to Parker: ``The validity of the (Consumers Union) study is also 
brought into doubt by Consumers Union's admission that they dismissed 
potential changes in consumer behavior. When the leaders of the 
movement are admitting the aim of labeling is to change consumer 
behavior and remove GMOs from the marketplace, I think that tells you 
how central consumer behavior is to the debate.''
The Pinocchio Test
    The $500 figure assumes that companies will switch to more 
expensive, non-genetically modified ingredients, and then pass all the 
incurred costs to consumers. It also assumes that all extra costs to 
stock, warehouse and produce new, non-genetically modified products 
will translate to higher prices at the cash register. It is difficult 
to imagine all of these assumptions will materialize for every company.
    However, it also is difficult to imagine that consumers or 
companies will not be affected at all. Not every company may be in the 
position to absorb all extra costs, if they decide to switch 
ingredients. Given that consumers overwhelmingly want GMO labeling--
even though they largely don't understand GMOs--consumers could decide 
not to buy products labeled as such. If the demand for such products 
decreases significantly, companies will have to act accordingly. 
Ultimately, that could result in costs trickling down to consumers--
even if it's not as high as $500 per year.
    It is an exaggeration to use the $500-per-family figure from the 
New York labeling bill in the national GMO debate. Those who oppose 
mandatory labeling are making the assumption that companies will switch 
out all GMO ingredients, produce completely new products, and then pass 
on all the costs of stocking, warehousing and producing those products 
to consumers. There may, indeed, be increased competition for companies 
to switch to non-GMO ingredients. But there are many other factors that 
affect wholesale or retail prices than just the cost of ingredients.
Three Pinocchios
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          (About our rating scale (http://www.washingtonpost.com/blogs/
        fact-checker/about-the-fact-checker/))

    Update: William Lesser, who conducted the Cornell study, provided 
the following response to this fact check.
    April as we know brings showers, leading to May flowers. As of late 
though April is also bringing a host of state-based bills to require 
labeling of many foods containing GMO ingredients. There are many 
issues involved in such discussions, but those receiving special 
attention are `the right to know' v. labeling costs. The polar points 
of the cost debate are the $2.30 annual per capita from Consumers Union 
and my estimate for N.Y. of $125 [Note: Lesser said he reduced his $500 
estimate for a family of four to $125 per capital to compare to the 
Consumers Union estimate.], which estimate received a triple ding from 
The Fact Checker (Would GMO labeling requirement cost $500 more in 
groceries per family a year?, (http://www.washingtonpost.com/blogs/
fact-checker/wp/2015/04/06/would-gmo-labeling-requirement-cost-500-
more-in-groceries-per-family-a-year/) April 6).
    The huge distinction is not over the cost of placing a ``May 
contain GMO ingredients'' on a package, but rather what the associated 
costs are. Those proposing low costs, according to The Fact Checker, 
assume few consumers will switch to products with the more costly non-
GMO ingredients and/or manufacturers will absorb the higher costs. The 
example given is for Ben & Jerry's which did not raise prices when it 
switched to non-GMO flavoring ingredients like brownies. But flavorings 
are only a small part of ice cream ingredient costs so, that example is 
not very illustrative.
    For my part, I assume based on survey data that, post-labeling, 
products will realign to 50% labeled GMO-containing, 40% unlabeled non-
GMO containing and 10% organic. Unfortunately The Fact Checker got that 
fact incorrect, stating my work ``assumes that companies will switch 
out of all GMO ingredients.'' I did not assume that, and the difference 
is enormous: about 10,000-12,000 individual food items. It is true that 
no one really knows how consumers will respond to labeling. The Fact 
Checker references a USDA study which notes that consumers may ignore 
GMO labels as they seem to ignore many other labels. But then other 
food products are not stigmatized by being called ``Frankenfoods,'' 
certain to cause concern among a population admittedly uninformed about 
GMOs.
    The Fact Checker serves a highly valuable function when checking 
the accuracy of politicians' quotes and identifying references to data 
sources. Critiquing an individual study on an unfamiliar industry is 
though a different task which should perhaps be approached with more 
care.

W. Lesser,
Dyson School of Applied Economics and Management,
Cornell University.
Support For Requiring Labels On GMO Foods Is Overwhelming Across All 
        Segments
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Nearly Nine-In-Ten Believe Labels Are Important, and a Majority Believe 
        They Are Very Much So
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                 ______
                                 
 Submitted Article by Hon. Dan Newhouse, a Representative in Congress 
                            from Washington
Organic 101: Can GMOs Be Used in Organic Products?
Posted by Miles McEvoy, National Organic Program Deputy Administrator, 
on May 17, 2013 at 1:20 p.m.

    This is the thirteenth installment of the Organic 101 (http://
blogs.usda.gov/tag/organic-101/) series that explores different aspects 
of the USDA organic regulations (http://www.ams.usda.gov/nop).

    The use of genetic engineering, or genetically modified organisms 
(GMOs), is prohibited (http://www.ecfr.gov/cgi-bin/text-
idx?c=ecfr&SID=3e8c8892691edb8b69 
8bb72196aafed3&rgn=div5&view=text&node=7:3.1.1.9.32&idno=7) in organic 
products. This means an organic farmer can't plant GMO seeds, an 
organic cow can't eat GMO alfalfa or corn, and an organic soup producer 
can't use any GMO ingredients. To meet the USDA organic regulations, 
farmers and processors must show they aren't using GMOs and that they 
are protecting their products from contact with prohibited substances, 
(http://www.ecfr.gov/cgi-bin/text-
idx?c=ecfr&SID=3e8c8892691edb8b698bb72196aafed3&rgn=div5&view=text&node=
 7:3.1.1.9.32&idno=7) such as GMOs, from farm to table.
    Organic operations implement preventive practices based on site-
specific risk factors, such as neighboring conventional farms or shared 
farm equipment or processing facilities. For example, some farmers 
plant their seeds early or late to avoid organic and GMO crops 
flowering at the same time (which can cause cross-pollination). Others 
harvest crops prior to flowering or sign cooperative agreements with 
neighboring farms to avoid planting GMO crops next to organic ones. 
Farmers also designate the edges of their land as a buffer zone where 
the land is managed organically, but the crops aren't sold as organic. 
Any shared farm or processing equipment must be thoroughly cleaned to 
prevent unintended exposure to GMOs or prohibited substances.
    All of these measures are documented in the organic farmer's 
organic system plan (http://blogs.usda.gov/2012/10/10/organic-101-five-
steps-to-organic-certification/). This written plan describes the 
substances and practices to be used, including physical barriers to 
prevent contact of organic crops with prohibited substances or the 
products of ``excluded methods'' such as GMOs. On-site inspections and 
records verify that farmers are following their organic system plan. 
Additionally, certifying agents conduct residue testing (http://
blogs.usda.gov/2013/02/20/organic-101-strengthening-organic-integrity-
through-increased-residue-testing/) to determine if these preventive 
practices are adequate to avoid contact with substances such as 
prohibited pesticides, antibiotics, and GMOs.
    Any certified organic operation found to use prohibited substances 
or GMOs may face enforcement actions, including loss of certification 
and financial penalties. However, unlike many pesticides, there aren't 
specific tolerance levels in the USDA organic regulations for GMOs. As 
such, National Organic Program policy (http://www.ams.usda.gov/AMSv1.0/
getfile?dDocName=STELPRDC5090396) states that trace amounts of GMOs 
don't automatically mean the farm is in violation of the USDA organic 
regulations. In these cases, the certifying agent will investigate how 
the inadvertent presence occurred and recommend how it can be better 
prevented in the future. For example, they may require a larger buffer 
zone or more thorough cleaning of a shared grain mill.
    USDA supports all methods of agriculture production, including 
organic, conventional, and biotechnology. To help these different 
methods coexist better, USDA has convened an Advisory Committee on 
Biotechnology and 21st Century Agriculture (http://www.usda.gov/wps/
portal/usda/usdahome?contentidonly=true&
contentid=AC21Main.xml) (``AC21''). Organic stakeholders are well-
represented on AC21. Recent recommendations from the Advisory Committee 
are currently being implemented (http://www.usda.gov/documents/usda-
factsheet-ac21-final-recommendations.pdf) by USDA agencies.
    Consumers purchase organic products expecting that they maintain 
their organic integrity from farm to market (http://blogs.usda.gov/
2012/04/26/organic-101-the-lifecycle-of-organic-food-production/), and 
USDA is committed to meeting these expectations. No matter where it was 
grown, if a product has the USDA Organic label on it, it wasn't 
produced with GMOs.
    See more at: http://blogs.usda.gov/2013/05/17/organic-101-can-gmos-
be-used-in-organic-products/#sthash.eFzcMOFW.dpuf

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
